No.19A__
IN THE

MEDTRONIC, INC.,

Applicant,

v.
MARK A. BARRY, M.D.,

Respondent.

ON APPLICATION FOR EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 9th day of July, 2019, all parties required to be served have been served copies of
the Application for Extension of Time Within Which to File a Petition for a Writ of
Certiorari to the United States Court of Appeals for the Federal Circuit in this matter
by overnight courier to the addresses on the attached service list.

c#fa--~&-v)

SETH

P. WAXMAN

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

SERVICE LIST
SEAN PAUL DEBRUINE
LAW OFFICE OF SEAN DEBRUINE
1259 El Camino Real, Suite 406
Menlo Park, CA 94025
(650) 269-9140
sean@danjohnsonlawgroup.com
ERWIN CENA
KILPATRICK TOWNSEND & STOCKTON LLP
12730 High Bluff Drive
San Diego, CA 92130
(858) 350-6100
ecena@kilpatricktownsend.com
ADAM HOWARD CHARNES
KILPATRICK TOWNSEND & STOCKTON LLP
2001 Ross Avenue, Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com
COURTNEY DABBIERE
DAVID CLAY HOLLOWAY
KILPATRICK TOWNSEND & STOCKTON LLP
1100 Peachtree Street, NE, Suite 2800
Atlanta, GA 30309
(404) 815-6500
cdabbiere@kilpatricktownsend.com
cholloway@ktslaw.com
DARIO ALEXANDER MACHLEIDT
KILPATRICK TOWNSEND & STOCKTON LLP
1420 Fifth Avenue, Suite 3700
Seattle, WA 98101
(206) 224-2857
dmachleidt@kilpatricktownsend.com

